March 7, 2014

Report Number: A-06-14-00027

Mr. Iden Martyn
Cozen O’Connor
1627 I Street, NW, Suite 1100
Washington, DC 20006

Dear Mr. Martyn:

This informational report provides you with the consolidated results of our audits conducted at
selected hospitals within the Christus Health System. 1 These hospitals are Christus Santa Rosa
Hospital, Christus St. Frances Cabrini Hospital, and Christus Hospital – St. Elizabeth (the
Hospitals).

Why We Did These Reviews

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements. For
calendar year (CY) 2011, Medicare paid hospitals $151 billion, which represents 45 percent of
all fee-for-service payments. Because these payments represent a significant portion of
Medicare’s expenditures, OIG has focused its oversight efforts in this area. For these reviews we
focused on inpatient stays of 1 day or less (short stays). Our previous work at other hospitals
found that a significant proportion of inpatient short stays would more appropriately be billed as
outpatient or outpatient with observation services, which generally result in lower reimbursement
than inpatient stays.

Our objective of these reviews was to determine whether the Hospitals complied with Medicare
requirements for billing inpatient short stays.

How We Conducted These Reviews

The reviews covered a total of $4,981,360 in Medicare payments to the Hospitals for 1,046
inpatient short-stay claims with dates of service from January 1, 2010, through June 30, 2012.

1
 Christus Health is a not-for-profit health system comprising almost 350 service providers and facilities, including
more than 60 hospitals and long-term-care facilities. Christus Health provides services in more than 60 cities in the
United States (Texas, Arkansas, Iowa, Louisiana, Missouri, Georgia, and New Mexico) and Mexico.


Medicare Compliance Reviews at Hospitals in Christus Health System (A-06-14-00027)                                 1
We selected a stratified random sample of 100 claims for review at each hospital. We submitted
all sampled claims to an independent medical review contractor to determine whether the
services were medically necessary. The reports focused on inpatient short-stay claims and did
not represent an overall assessment of all claims submitted by the hospitals for Medicare
reimbursement.

                     Table: Office of Inspector General Compliance Reviews
                           of Hospitals in the Christus Health System

                                                                    Report              Hospital
          Audit Title and Report Number                           Issue Date           Location
Medicare Compliance Review of Christus Santa                                         San Antonio,
                                                                   2/25/14
Rosa Hospital for the Period January 1, 2010,                                        Texas
Through June 30, 2012 (A-06-12-00068)
Medicare Compliance Review of Christus St.                                           Alexandria,
                                                                   2/25/14
Frances Cabrini Hospital for the Period January 1,                                   Louisiana
2010, Through June 30, 2012 (A-06-13-00019)
Medicare Compliance Review of Christus Hospital                                      Beaumont,
                                                                   2/25/14
– St. Elizabeth for the Period January 1, 2010,                                      Texas
Through June 30, 2012 (A-06-13-00020)

What We Found

The Hospitals complied with Medicare inpatient billing requirements for 84 of the 300 short-stay
claims we reviewed. However, the Hospitals did not fully comply with Medicare inpatient
billing requirements for the remaining 216 claims. For 205 claims, the Hospitals incorrectly
billed Medicare Part A for inpatient beneficiary stays that should have been billed as outpatient
or outpatient with observation services. Specifically, our independent medical review contractor
determined that inpatient admission was not medically necessary for these beneficiaries. The
services planned at the time of admission could have been safely provided at the outpatient level.
Additionally, the Hospitals incorrectly billed Medicare for diagnosis-related-group codes that
were not supported by the medical records (eight claims), or the medical records did not include
a signed and dated physician order (three claims). As a result of these errors, the Hospitals
received overpayments of $1,321,644.

Based on the results of the three separate samples, we estimated that the Hospitals received at
least $3,326,589 in overpayments from Medicare. The Hospitals did not provide a cause for the
overpayments because they did not agree that they had made these billing errors. In each of the
reviews, we recommended that the Hospitals refund the overpayments to the Medicare contractor
and strengthen controls to ensure full compliance with Medicare requirements.

Appendix A contains a summary of results by hospital, and Appendix B contains the sample
results and estimates.




Medicare Compliance Reviews at Hospitals in Christus Health System (A-06-14-00027)                  2
Conclusion

This report is being provided to you for informational purposes. Please use these results in any
corrective actions you may take to reduce Medicare overpayments for the three hospitals we
reviewed and other hospitals in your health care system. We appreciate the opportunity to
provide you with these results.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this informational report will be posted at
https://oig.hhs.gov.

                                                  Sincerely,



                                                  /Brian P. Ritchie/
                                                  Assistant Inspector General
                                                    for Audit Services




Medicare Compliance Reviews at Hospitals in Christus Health System (A-06-14-00027)                3
                              APPENDIX A: RESULTS BY HOSPITAL

          Hospital                 Number of Claims          Number of Claims –        Number of Claims –
                                    – Inpatient Stay          Incorrectly Billed        Did Not Include
                                     Not Medically           Diagnosis-Related-         Physician Order
                                       Necessary                Group Codes
Christus Santa Rosa
Hospital                                     61                         7                      2
Christus St. Frances Cabrini
Hospital                                     62                         0                      0
Christus Hospital – St.
Elizabeth                                    82                         1                      1
 Total                                     205                          8                      3




  Medicare Compliance Reviews at Hospitals in Christus Health System (A-06-14-00027)                 4
                             APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                                      Sample Results
                                                                                     Number of
                                                                                     Incorrectly
                                                                                        Billed         Value of
                                            Value of           Value of 100           Claims in     Overpayments in
      Hospital          Frame Size           Frame           Sampled Claims            Sample           Sample
Christus Santa
Rosa Hospital                 342          $1,987,423             $754,583                    70        $446,289
Christus St.
Frances Cabrini
Hospital                      187           1,247,510              687,348                    62        517,682
Christus Hospital
– St. Elizabeth               517           1,746,427              444,402                    84        357,673
 Total                      1,046          $4,981,360           $1,886,333                216         $1,321,644

                                              Estimated Overpayments
                                (Limits Calculated for a 90-percent Confidence Interval)


                                                 Point
                            Hospital            Estimate        Lower Limit           Upper Limit
                      Christus Santa
                      Rosa Hospital            $1,318,479        $1,192,275            $1,444,683
                      Christus St.
                      Frances Cabrini
                      Hospital                    942,312           814,568             1,070,057
                      Christus Hospital
                      – St. Elizabeth           1,440,602         1,319,746             1,561,459
                        Total                  $3,701,393        $3,326,589            $4,076,199




         Medicare Compliance Reviews at Hospitals in Christus Health System (A-06-14-00027)                5
